<html>
<title> - NEW BORDER WAR: CORRUPTION OF U.S. OFFICIALS BY DRUG CARTELS</title>
<body><pre>[Senate Hearing 111-649]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-649

      NEW BORDER WAR: CORRUPTION OF U.S. OFFICIALS BY DRUG CARTELS

=======================================================================

                                HEARING

                               before the

                  AD HOC SUBCOMMITTEE ON STATE, LOCAL,
            AND PRIVATE SECTOR PREPAREDNESS AND INTEGRATION

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2010

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
58-385 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK l. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


 AD HOC SUBCOMMITTEE ON STATE, LOCAL, AND PRIVATE SECTOR PREPAREDNESS 
                            AND INTEGRATION

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              JOHN ENSIGN, Nevada
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
MICHAEL F. BENNET, Colorado
                     Kristin Sharp, Staff Director
                 Mike McBride, Minority Staff Director
                       Kelsey Stroud, Chief Clerk









                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Pryor................................................     1

                               WITNESSES
                        Thursday, March 11, 2010

Kevin L. Perkins, Assistant Director, Criminal Investigative 
  Division, Federal Bureau of Investigation, U.S. Department of 
  Justice........................................................     3
Thomas M. Frost, Assistant Inspector General for Investigations, 
  Office of Inspector General, U.S. Department of Homeland 
  Security.......................................................     4
James F. Tomsheck, Assistant Commissioner, Office of Internal 
  Affairs, U.S. Customs and Border Protection, U.S. Department of 
  Homeland Security..............................................     6

                     Alphabetical List of Witnesses

Frost, Thomas M.:
    Testimony....................................................     4
    Prepared statement...........................................    23
Perkins, Kevin L.:
    Testimony....................................................     3
    Prepared statement...........................................    19
Tomsheck, James F.:
    Testimony....................................................     6
    Prepared statement...........................................    30

                                APPENDIX

Chart entitled ``CBP Growth: Staffing Levels FY 2004-2009,'' 
  submitted by Mr. Tomsheck......................................    32
Chart entitled ``Cities Reporting the Presence of Mexican Drug 
  Trafficking Organizations,'' submitted by Mr. Tomsheck.........    33
Chart entitled ``CBP Corruption Related Arrests FY 2005 to 
  Present,'' submitted by Mr. Tomsheck...........................    34
Questions and responses submitted for the Record from:
    Mr. Perkins..................................................    35
    Mr. Tomsheck.................................................    37
    Mr. Frost....................................................    40

 
      NEW BORDER WAR: CORRUPTION OF U.S. OFFICIALS BY DRUG CARTELS

                              ----------                              


                        THURSDAY, MARCH 11, 2010

                                 U.S. Senate,      
             Ad Hoc Subcommittee on State, Local, and      
           Private Sector Preparedness and Integration,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:07 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark L. 
Pryor, Chairman of the Subcommittee, presiding.
    Present: Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I will go ahead and call the Subcommittee to 
order. I want to thank all of our witnesses for coming to the 
Subcommittee on State, Local, and Private Sector Preparedness 
and Integration. We are meeting in the Homeland Security and 
Governmental Affairs Committee room. I want to thank all of you 
for being here and participating. What I would like to do is go 
ahead and give my opening statement--Senator Ensign is on his 
way, and maybe a couple of others; I am not quite sure--and 
then I will turn it over to the witnesses. Then we will ask 
questions.
    Let me start just with a couple of facts. Fact No. 1 is 
that Mexico ships over 50 percent of the methamphetamine and 
marijuana into the U.S. market. Over 50 percent of it comes 
from Mexico. And 90 percent of the cocaine in the United States 
comes from Mexico. That is about a $25 billion industry in 
Mexico, drugs, and drug trade.
    As a result of that, fact No. 2 would be that the U.S. 
border defenses have beefed up, and they have tried to squeeze 
these drug routes, which has been good, and to some extent that 
has been effective. But to gain an advantage, the cartels have 
begun to infiltrate U.S. law enforcement. I think that is very 
troubling for the Senate, and it is very troubling for most 
Americans, and it is troubling for those agencies.
    Our review suggests that the cartels are broadly targeting 
Federal border law enforcement as well as State and local 
governments. We are not going to focus on State and local 
today, but we have to acknowledge that is a large concern as 
well, and we will be working with the Federal agencies and the 
State and local governments to try to get a better handle on 
this and work through good strategies on how we can prevent 
this from happening.
    The Border Patrol seems to be the biggest target and have 
the most corruption. A news report recently said that there has 
been a 40-percent increase in U.S. Customs and Border 
Protection (CBP) corruption arrests and there are dozens of 
open investigations. Other possible Federal targets would be 
the Immigration and Customs Enforcement (ICE), Federal Bureau 
of Investigation (FBI), Transportation Security Administration 
(TSA), Drug Enforcement Administration (DEA), and probably a 
few more. But they seem to be less vulnerable, and I am 
assuming that is because the CBP is on the front line and they 
are the face of our border; and it has doubled its size in 10 
years with a lot of new people coming, new faces, and new 
personnel. I think we are starting to see some problems as a 
result of that.
    Our review suggests that CBP may not be using all of the 
accepted tools to screen job applicants. I think they have a 
goal of polygraphing all job applicants, but today they are 
only doing about 10 percent. So we want to talk about that 
today. And this is not just drugs, but there are guns and money 
that are moving across the border; largely from north to south 
across the border. And there is always the possibility of 
terrorists coming into the country if we have a weakened 
border.
    So these cartels in Mexico are very powerful. We should not 
underestimate their ability to try to corrupt U.S. law 
enforcement agencies. Right now we think that the Mexican drug 
cartels have drug operations in 230 U.S. cities. Three of those 
happen to be in my State: Fort Smith, Fayetteville, and Little 
Rock. And also in 2009, the statistics indicate that there were 
6,500 drug war-related deaths in Mexico.
    So this is a very serious problem. It is on our border. 
There is a war going on down around the border and in Mexico 
related to the drug cartels.
    What I would like to do now is go ahead and give a brief 
introduction for each of our witnesses, and I appreciate you 
all for being here. And in a few moments, when Senator Ensign 
comes, if he wants to make an opening statement, that would be 
great.
    What we are going to do is we are going to leave the record 
open for a week or 2 weeks for some of the Senators who could 
not be here today because of other committee hearings and what 
is going on on the floor, so we may have some written questions 
that we would ask you to follow up on.
    Our first witness is Kevin Perkins, the Assistant Director 
of the Criminal Investigative Division at the FBI. He began his 
career as a special agent in 1986 and has served in operational 
and investigative positions focusing extensively on white-
collar crime and public corruption. The FBI has established 
several interagency Border Corruption Task Forces designed to 
bring local, State, and Federal parties together as needed to 
coordinate efforts on border-related corruption, but I 
understand your real claim to fame is you are from Mountain 
Home, Arkansas?
    Mr. Perkins. Graduated in 1978.
    Senator Pryor. There you go. We can talk more about that in 
a few minutes, but thank you. That is great.
    Mr. Perkins. Yes, sir.
    Senator Pryor. Our second witness will be Tom Frost. He is 
the Assistant Inspector General for Investigations of the 
Department of Homeland Security. Mr. Frost has been involved in 
and has served as a Federal law enforcement officer since 1976 
in a variety of investigative, protective, and leadership 
roles.
    And then our third witness today is James Tomsheck. He is 
the Assistant Commissioner of the Office of Internal Affairs at 
CBP. Mr. Tomsheck is a former Deputy Assistant Director of the 
Office of Investigations at the U.S. Secret Service as well as 
the former Deputy Assistant Director of the Office of 
Government and Public Affairs. The Office of Internal Affairs 
has developed and implemented a comprehensive integrity 
strategy designed to prevent, detect, and investigate all 
threats to the integrity of the CBP.
    With that, what I would like to do is call on Mr. Perkins, 
and what we are going to do is if you could limit your remarks 
to 5 minutes, please understand that we will put your written 
statements in the record, so that will be part of the record. 
But if you could limit your statements to 5 minutes, that would 
be perfect.
    Mr. Perkins.

TESTIMONY OF KEVIN L. PERKINS,\1\ ASSISTANT DIRECTOR, CRIMINAL 
 INVESTIGATIVE DIVISION, FEDERAL BUREAU OF INVESTIGATION, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Perkins. Good morning, Chairman Pryor. I am pleased to 
be here today to discuss the FBI's efforts to combat public 
corruption.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Perkins appears in the Appendix 
on page 19.
---------------------------------------------------------------------------
    The FBI recognizes that fighting public corruption is vital 
to preserving our democracy, protecting our borders, and 
securing our communities. In fact, it is our top criminal 
priority following only the national security priorities of 
counterterrorism, counter-intelligence, and cyber crimes.
    We are directing resources to root out public corruption 
all across the country, but we cannot, and fortunately do not 
have to, do it alone. We rely heavily on our partners at all 
levels of law enforcement.
    Through our vigilance, we have achieved some notable 
successes. In the past 2 years alone, our efforts have helped 
convict 1,600 Federal, State, and local officials. We have 
approximately 2,500 pending corruption investigations ongoing 
today.
    The Southwest border is a particular focus of our 
corruption-fighting efforts. Of the 700 agents leading our 
charge against corruption, approximately 120 of those are 
working along our U.S. Southwest border.
    Our 12 Southwest Border Corruption Task Forces share 
information with the Southwest Intelligence Group, the El Paso 
Intelligence Center, and our Mexican legal attaches to both 
identify and disrupt Mexican drug-trafficking organizations 
from utilizing and soliciting U.S. public officials to commit 
criminal activities.
    One particular case highlights the potential national 
security implications of public corruption along our Nation's 
borders. In that case, an individual gained employment as a 
border inspector for the specific purpose of trafficking in 
drugs. Through our collaborative efforts and a year-long 
investigation, this public official pled guilty to one count of 
conspiracy to import more than 1,000 kilograms of marijuana 
into the United States while at the same time receiving more 
than $5 million in bribe payments. This individual has since 
been sentenced to 20 years in Federal prison.
    While the threat posed in the region is real, the Southwest 
border is not and should not remain the only focus of our 
efforts. Each day the Federal Government is charged with 
protecting over 7,000 miles of land bordering Canada and Mexico 
and over 300 ports of entry across the United States. Each of 
these entry points has the potential for criminal and/or 
terrorist organizations to exploit corrupt officials willing to 
misuse their official positions for financial or personal gain.
    In fiscal year 2009 alone, FBI field offices along the 
Nation's Canadian border conducted nearly 300 public corruption 
investigations.
    The FBI has recognized the very real threat public 
corruption poses at our Nation's borders and ports of entry. We 
are working lock-step with our law enforcement partners to 
address that threat. At FBI Headquarters, for example, we have 
established our National Border Corruption Task Force. 
Consisting of representatives of the FBI, U.S. Department of 
Homeland Security Office of the Inspector General, U.S. Customs 
and Border Protection-Internal Affairs, and the Transportation 
Security Administration, this task force ensures general 
guidance and oversight of border corruption programs ongoing 
across the country.
    Through trend analysis, intelligence and information 
sharing, and the utilization of lessons learned and best 
practices, we are uniquely positioned to address the very real 
threat of border corruption and the risk it poses to our 
national security.
    To that end, our National Border Corruption Task Force is 
coordinating with other impacted divisions at FBI Headquarters. 
These include the FBI's Directorate of Intelligence, the 
Counterintelligence Division, the Counterterrorism Division, 
and our Weapons of Mass Destruction Directorate. By working 
together, sharing information, and becoming more creative in 
our approach, we are making great strides.
    I thank you for allowing me the opportunity to testify 
before you today and share some of the FBI's work in combating 
public corruption, and I will be able to answer your questions 
at the appropriate time. Thank you, Senator.
    Senator Pryor. Thank you. Mr. Frost.

 TESTIMONY OF THOMAS M. FROST,\1\ ASSISTANT INSPECTOR GENERAL 
     FOR INVESTIGATIONS, OFFICE OF INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Frost. Chairman Pryor, thank you for the opportunity to 
discuss the work of the Department of Homeland Security Office 
of Inspector General. As Assistant Inspector General for 
Investigations, my office is responsible for investigating all 
allegations of DHS employee criminal misconduct, including 
those related to the security of the Nation's borders.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Frost appears in the Appendix on 
page 23.
---------------------------------------------------------------------------
    Our mission, in part, is to strengthen the effectiveness 
and efficiency of DHS by conducting investigations and 
exercising oversight that will help protect the Nation from 
dangerous people and dangerous things. The OIG reports both to 
the Secretary and the Congress, and our position provides 
necessary objectivity to inspire the public trust and the 
confidence of the DHS workforce. We have a staff of highly 
trained and experienced criminal investigators deployed in 25 
offices in the United States and complemented by a staff of 
audit and inspection professionals.
    Border-related corruption is not limited to one DHS 
component. It can touch employees and contractors across DHS as 
well as employees of State and local governments.
    In fiscal year 2009, we opened over 839 criminal cases 
involving DHS employees and programs. Our investigations 
resulted in 313 arrests, 293 indictments, 281 convictions, and 
59 administrative actions.
    One of our strategies is to leverage existing resources and 
share intelligence through our working partnerships with the 
DEA, ICE, FBI, and others, and by participating on various task 
forces including the FBI's Border Corruption Task Force 
Initiative.
    Law enforcement has recognized that the smuggling of people 
and things across the border is large-scale business dominated 
by organized criminal enterprises. As we disrupt traditional 
smuggling routes and networks, organizations resort to 
alternative tactics, including bribing DHS employees, 
infiltrating our ranks, and engaging in fraudulent schemes to 
acquire immigration benefits. We have found the tactics used by 
the drug-trafficking organizations as they attempt to 
compromise our employees are similar to tactics used by foreign 
intelligence services to recruit spies.
    CBP staffing and funding levels have increased dramatically 
since 2003, creating the largest uniformed law enforcement 
agency in the country, an agency that, along with ICE, occupies 
the front line in securing our physical border.
    Since 2003, we have made arrests of 129 CBP officers and 
Border Patrol agents. For example, we recently arrested a CBP 
officer for alien and narcotic smuggling in a joint FBI 
investigation in Brownsville, Texas. The officer was sentenced 
to 135 months in Federal prison.
    As already noted, we are confronted with corruption in 
other layers of border security. Law enforcement officers from 
ICE and CBP have been corrupted for their access to sensitive 
law enforcement information. Drug-trafficking organizations 
have purchased information to vet their members, to track 
investigative activity, and to identify cooperating 
individuals.
    At international airports, or even on interstate highways, 
for that matter, you can have border corruption because these 
organizations need to move their product and proceeds further 
inland or out of the country. We have arrested TSA and other 
DHS employees as they smuggled narcotics and weapons onto 
aircrafts and even for selling TSA-screened baggage tags.
    As an example, we conducted an investigation with DEA of an 
ICE immigration enforcement agent who used his government 
credentials to bypass TSA security. We arrested him when he 
tried to smuggle 10 pounds of marijuana through the checkpoint 
in his carry-on luggage.
    Citizenship and Immigration Services employees are targeted 
because drug-trafficking organizations need to have personnel 
operating inside the United States to facilitate their 
business, and criminal organizations use corruption and fraud 
to obtain immigration benefits to place conspirators in 
position to assist their criminal enterprises.
    We have worked joint investigations along the Northern 
border with Royal Canadian Mounted Police. We have worked a 
case with the FBI where we arrested a Mexican chief of police 
who attempted to bribe a Border Patrol agent offering him 
$25,000 per load of marijuana. The police chief received a 90-
month prison sentence.
    For all our successes, we recognize the need for continued 
improvement. We suggest increased suitability screening for 
prospective DHS employees, increased monitoring efforts on 
backgrounds of current employees, increased employee training 
through integrity briefings, enforcing administrative 
regulation, workplace rules, ensuring all relevant allegations 
are promptly and efficiently referred.
    Acts of corruption within the Department of Homeland 
Security represent a threat to our Nation and undermine the 
honest and hard-working employees of the Department.
    Mr. Chairman, this concludes my prepared statement. I will 
be pleased to answer any questions. Thank you.
    Senator Pryor. Thank you. Mr. Tomsheck.

  TESTIMONY OF JAMES F. TOMSHECK,\1\ ASSISTANT COMMISSIONER, 
OFFICE OF INTERNAL AFFAIRS, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Tomsheck. Mr. Chairman, thank you for the opportunity 
to be here this morning and answer your questions.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tomsheck appears in the Appendix 
on page 30.
---------------------------------------------------------------------------
    U.S. Customs and Border Protection is responsible for 
securing our Nation's borders while at the same time 
facilitating the movement of legitimate travel and trade, both 
key components to our Nation's economy. Our purview spans more 
than 5,000 miles of border with Canada and 1,900 miles of 
border with Mexico. CBP is actually the largest law enforcement 
organization in the United States, comprised of 20,000 Border 
Patrol agents deployed between the ports of entry and over 
20,000 CBP officers actually stationed at the various land, 
air, and sea ports of entry throughout our country. They are 
joined by an 1,000-agent force of air and marine interdiction 
agents, whose job it is to implement the air and maritime 
responsibilities of CBP. There are an additional 2,300 
agricultural specialists and other professionals that bring the 
sum total of CBP staffing, as is reflected in the chart,\2\ to 
over 58,000 individuals.
---------------------------------------------------------------------------
    \2\ The chart submitted by Senator Pryor appears in the Appendix on 
page 32.
---------------------------------------------------------------------------
    A snapshot of what it is CBP is able to accomplish with 
that large workforce. In fiscal year 2009 alone, CBP processed 
more than 360 million pedestrians and passengers, 109 million 
conveyances, apprehended over 556,000 illegal aliens between 
our ports of entry, and encountered over 224,000 inadmissible 
aliens at our ports of entry. We also seized more than 5.2 
million pounds of illegal drugs. Every day, CBP processes over 
1 million travelers seeking to enter the United States by land, 
air, or sea.
    Unfortunately, we are encountering integrity challenges for 
any one of a number of reasons. We are the largest law 
enforcement agency in the country. For a large number of 
reasons, we are the most vulnerable to integrity threats. We 
deploy that very vulnerable workforce to the highest threat 
environment for integrity threats--our Southwest border that we 
share with the country of Mexico--and all of this is occurring 
at a point in time that transnational criminal organizations 
are doing all that they can to infiltrate CBP through our 
hiring initiatives and at the same time compromise our existing 
workforce through recruitment.
    The overwhelming majority of CBP employees routinely 
demonstrate the highest levels of integrity. Acts of 
corruption, unfortunately, do occur. Since October 1, 2004, 103 
of our agents or officers have been arrested for corruption. 
These charges include drug smuggling, alien smuggling, money 
laundering, and conspiracy.
    Corruption is an issue that CBP takes extremely seriously, 
and we are deeply concerned about our current state. CBP must 
ensure its employees adhere to a culture of integrity. Although 
the percentage of prosecutions for corruption is very small, no 
incident of corruption is tolerated.
    Please remember once again the overwhelming majority of CBP 
agents and officers perform their duties with honor and 
distinction. Those that do not put our country and our fellow 
agents and officers at risk.
    CBP's Office of Internal Affairs is fully committed to 
working in a cooperative and collaborative relationship with 
the FBI, DHS Office of Inspector General, Immigration and 
Customs Enforcement's Office of Professional Responsibility, 
and others to address all integrity-related issues within CBP. 
This layered approach we believe is the appropriate response to 
a multidimensional attack by those wishing to compromise our 
workforce.
    Placing the investigative resources of those agencies and 
our other key partners in the environment of the FBI-led Border 
Corruption Task Force (BCTF) facilitates the effective and 
efficient sharing of information and resources. The BCTFs also 
serve to deconflict investigations and enhance agent and 
officer safety issues and also assure that those cases 
presented for prosecution include all available evidence.
    Today CBP Office of Internal Affairs manages a wide array 
of integrity- and security-related functions or programs that 
combine to form, again, what you referred to as our 
comprehensive integrity strategy. This includes the three 
pillars of prevention, detection, and investigation--three 
initiatives that we believe are inextricably intertwined.
    Prevention, which is the prevention of bad people from 
entering CBP, we hope to accomplish through a combination of 
background investigations and the strategic application of the 
standard Federal law enforcement pre-employment polygraph 
examination, detection of bad people who have found their way 
into our workforce through a combination of research and all 
available information within the organization, and a careful 
analysis of our employees' behavior that may very well suggest 
integrity problems. Also, the use of periodic reinvestigations 
is a vital tool in the detection of corruption. Investigation 
of those bad people that have found their way into our 
workforce is accomplished in a partnership with the persons 
sitting here at the table with me and others not at this table 
but in this room.
    Our Investigative Operations Division is comprised of 214 
agents deployed to 22 locations currently there investigating 
in excess of 900 cases.
    Again, I very much appreciate the opportunity to be here 
this morning and look forward to answering your questions.
    Senator Pryor. Thank you very much. Let me follow up, if I 
can, Mr. Tomsheck, with you. I see this Customs and Border 
Protection chart we have here, and you can see the numbers have 
grown on this chart.\1\ I know there are a lot of good reasons 
why those numbers have grown, but my understanding is that the 
CBP policy is to do a polygraph on all the applicants.
---------------------------------------------------------------------------
    \1\ The chart referred to submitted by Senator Pryor appears in the 
Appendix on page 32.
---------------------------------------------------------------------------
    Mr. Tomsheck. That is our goal, sir.
    Senator Pryor. And my understanding is you are only doing 
about 10 percent right now. Is that right?
    Mr. Tomsheck. That is accurate. At this point we concluded 
calendar year 2009 testing closer to 15 percent of the 
applicant pool. That occurred because near the end of the year 
there was a dramatic decline in the size of the applicant pool. 
We are unable to deploy any additional polygraph examiners or 
agent polygraph examiners, but there were substantially fewer 
applicants to be tested in the final weeks of calendar year 
2009.
    Senator Pryor. And is the polygraphing a resource issue for 
you?
    Mr. Tomsheck. It is, sir.
    Senator Pryor. And of those who are polygraphed, what 
percentage are found unsuitable for service?
    Mr. Tomsheck. Approximately 60 percent.
    Senator Pryor. Sixty percent. Can we extrapolate from that, 
if there is 90 or even 85 percent of the folks that are on this 
chart that have not been polygraphed, maybe 60 percent of them 
might not pass the polygraph if they took the test?
    Mr. Tomsheck. We and others have done that analysis, 
Senator, and reached the same conclusion, that many of those 
persons hired during CBP's hiring initiatives who did not take 
a standard Federal law enforcement pre-employment polygraph 
exam may very well have entered into our workforce despite the 
fact that they were unsuitable.
    Senator Pryor. What can we do to address that with those 
employees now?
    Mr. Tomsheck. Again, it is our goal to reach that point 
that we are doing 100 percent polygraph screening of all of our 
applicant pool as soon as possible.
    Senator Pryor. How long will it take you to get to that 
goal?
    Mr. Tomsheck. At this point we are unable to expand our 
polygraph program beyond where it currently is staffed with 31 
agent examiners. It would require substantially more examiners 
to be certain that we would have adequate resources to screen 
just for that hiring that may occur by virtue of attrition 
within our workforce.
    Senator Pryor. Do you know how many more examiners you 
would need?
    Mr. Tomsheck. Approximately 50.
    Senator Pryor. And would those have to be full-time, or 
could you do them on a contract basis to get rid of the 
backlog?
    Mr. Tomsheck. We would have to utilize full-time employees 
to accomplish those polygraph exams. There are fairly rigid 
requirements associated with not allowing contractors to test 
full-time government employees or law enforcement applicants.
    Senator Pryor. OK. That 60-percent number is alarming to 
me.
    Mr. Tomsheck. It is to me as well, sir.
    Senator Pryor. Mr. Perkins, let me ask you, what Federal 
agencies have been targeted for infiltration? You all have 
covered this, but I just want to hear it again. My 
understanding is maybe the FBI, DEA, TSA, ICE, as well as CBP. 
Are there others that have been targeted for infiltration?
    Mr. Perkins. I cannot speak directly to which other 
agencies may have been infiltrated. I know speaking from the 
FBI's perspective, we are constantly on the lookout for outside 
on this--whether it is foreign government or a drug-trafficking 
organization or anything along those lines trying to infiltrate 
our ranks. We have fairly robust procedures in place involving 
polygraphs and the like. All of our special agents are required 
to maintain a top secret security clearance, which requires 5-
year reinvestigations and the like, which includes a national 
security polygraph exam.
    While we are constantly on the lookout for that, I do not 
have the exact numbers of times attempts have been made to the 
Bureau, but I do know that has occurred.
    Senator Pryor. I know that we see some of these charts with 
how many arrests have been made in these agencies. But one 
thing that I think the Subcommittee is trying to get a handle 
on is how pervasive is this problem. Whether it be a percentage 
or a number, do you have a sense of how pervasive this problem 
is?
    Mr. Perkins. I can give an example that I think may get to 
the answer we need here. It is without a specific number, but 
if you look at the actual cases where we have had interdiction, 
the Crispin case, in fact, I mentioned in my opening statement. 
This individual was paid over $5 million in bribes. So when you 
back into that amount, you quickly figure out from a business 
standpoint exactly how valuable it is to the drug-trafficking 
organizations to get their loads and other things across the 
border that they are willing to pay an individual $5 million. I 
can extrapolate from that to say it is significantly pervasive.
    Senator Pryor. And in the Crispin case, I guess that is a 
Mr. Crispin.
    Mr. Perkins. Miss.
    Senator Crispin. Miss Crispin.
    Mr. Perkins. Margarita Crispin.
    Senator Pryor. What was her job title? What did she do?
    Mr. Perkins. She was a CBP officer, and essentially what 
she was able to do was clear vehicles coming through her 
checkpoint without inspection, knowing ahead of time which 
vehicles they were, which ones to wave through, and these 
vehicles were able to get into the country with no inspection 
at all.
    Senator Pryor. And do you know how long that went on before 
she was caught?
    Mr. Frost. Senator, that went on for many years. Prior to 
2003, she was suspected of being involved in smuggling 
operations. Additionally, Martha Garnica was an El Paso police 
officer we believe was also recruited to further the smuggling 
scheme by becoming a customs officer.
    Senator Pryor. Well, Mr. Tomsheck, on this chart,\1\ I 
think you mentioned that you have had 102 or 103 arrests, and I 
think that chart reflects that at CBP. Does a chart like this 
tell the whole story? I know you have some investigations, you 
have some arrests, but does it--can we look at that chart and 
say that this problem is getting worse and that this is 
something that if we do not get on top of--we already have a 
major problem, but it is about to get out of control?
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Pryor appears in the Appendix 
on page 34.
---------------------------------------------------------------------------
    Mr. Tomsheck. Senator, I believe that excellent chart, 
which I think was created by the ICE Office of Professional 
Responsibility, is a good insight as to what our current state 
actually is. It reflects the number of those persons who have 
actually been arrested by DHS-OIG, FBI, and other agencies 
participating in a collaborative way to accomplish that. But 
those are the persons that have been arrested. Those are the 
ones that we came to be aware of.
    Our grave concerns are how many other persons are in our 
workforce, how many other persons have gained access to our 
workforce through the hiring initiatives that are not recorded 
by that chart. But the chart would be a good indicator of how 
many might be in our workforce.
    Senator Pryor. Let me ask about your impression of this--I 
know there is no empirical data on this, but is your impression 
that there is a bigger problem with the new hires, that people 
may be intentionally trying to infiltrate and go in and try to 
do this on behalf of the cartels? Or is it the existing 
workforce, people out in the field right now that just over 
time get corrupted?
    Mr. Tomsheck. I think both of those scenarios are true, 
Chairman Pryor. The reality of it is we know from our analysis 
of those persons that have been arrested, at the beginning of 
my assignment at CBP, which began in June 2006, the vast 
majority of those persons arrested had nearly 10 years of 
service. Those numbers began to change significantly as CBP's 
hiring initiatives came about. We see a bimodal universe of the 
data at this point where there are two groups of persons being 
charged with corruption. They include both the more senior 
person who had been recruited, but they also include persons 
who clearly came to CBP solely for the purpose of being corrupt 
and taking advantage of the authorities they have as a CBP 
employee, a CBP law enforcement officer to further their pre-
existing involvement in a criminal organization.
    The polygraph program, also, and the careful review of the 
information we obtain through the interviews following the exam 
has given us an insight to the number of persons who may have 
seized on our hiring initiatives to gain access to CBP.
    Senator Pryor. Mr. Perkins mentioned the Crispin case, and 
he mentioned a figure of $5 million. What is typical? How much 
money does it take to corrupt a Border Patrol officer?
    Mr. Tomsheck. Well, I am afraid, be it Border Patrol agents 
or CBP officers, we find that some are willing to compromise 
their authorities and sell out their allegiance to those that 
would harm our country in any way they can and harm our fellow 
agents in any way they can for remarkably small amounts of 
money.
    At the same time, some of the employees are determined to 
be corrupt, appear to have done so only after having been 
asked--or offered vast sums of money similar to what Ms. 
Crispin was determined to have taken.
    There is a wide array of what makes somebody decide to 
become corrupt.
    Senator Pryor. And we have talked about the polygraphs, but 
also, as I understand it, CBP and all Federal law enforcement 
agencies do a periodic reinvestigation background check on 
their current employees as well. I think it depends on the 
agency and the status of the employee. But how are there in 
terms of your checking the workforce you have in place right 
now?
    Mr. Tomsheck. To be honest, Chairman Pryor, we are 
challenged to keep up with the pace of the periodic 
reinvestigations that are required once every 5 years for a 
person in a sensitive position, as our CBP law enforcement 
officers. We have a backlog of periodic reinvestigations at 
this point, are doing everything we can to both improve the 
quality of those investigations while at the same time keep 
pace with the numbers that come due every year.
    Senator Pryor. OK. The two words you mentioned are 
``challenged'' and ``backlogged.'' Give me a sense of how far 
behind you are, whether that is a percentage or a number or 
amount of years. How far behind are you on the periodic 
background checks?
    Mr. Tomsheck. Today over 10,000 of our employees are 
overdue to have their periodic reinvestigation concluded. By 
the end of this calendar year, there will be an additional 
9,000 of our law enforcement officers who are due to have their 
periodic reinvestigations updated, conducted. And it is an 
excellent tool to detect corruption in the workforce.
    Senator Pryor. And how many do you think you will be able 
to get done this year?
    Mr. Tomsheck. At this point our current budget situation 
does not allow for us to hopefully reach that 19,000 number. 
The goal is to accomplish as many as we can. If we are able to 
accomplish half, that may be what our budget situation 
currently allows for this calendar year.
    Senator Pryor. Half of the 19,000.
    Mr. Tomsheck. Yes. Some of that answer resides in how many 
persons are hired by CBP for the remainder of this calendar 
year.
    Senator Pryor. Right.
    Mr. Tomsheck. The same personnel security resources that do 
background investigations for new employees conduct those 
periodic reinvestigations. If we do hire substantially in this 
calendar year for attrition, we will have to divert some of 
those resources from periodic reinvestigations to do new 
applicant or new employee background investigations.
    Senator Pryor. Do you have a sense of what your oldest 
backlog is? In other words, if you have 19,000, are you 2, 3, 4 
years behind on some people? Or do you know?
    Mr. Tomsheck. That was the case at the beginning of this 
fiscal year because the hiring of CBP employees decreased 
drastically. In the last 3 months of calendar 2009, we were 
able to address some of those oldest periodic reinvestigations, 
and those were investigations that were a year or 18 months 
overdue.
    Senator Pryor. And I will ask a similar question as I did 
with the polygraph. How many employees do you get that do not 
pass one of these periodic background checks?
    Mr. Tomsheck. A small number of the periodic 
reinvestigations, actually less than 1 percent of the period 
reinvestigations, as they are conducted today, detect 
significant integrity issues.
    Senator Pryor. And you said ``as they are conducted today'' 
because you indicated that you might also need to improve the 
quality and the thoroughness of the background checks?
    Mr. Tomsheck. We would like to see the periodic 
reinvestigations evolve into a continuous monitoring scenario, 
the never-ending background investigation, if you will. We 
would like to have the resources to continuously monitor our 
workforce, increasing and decreasing the intensity of that 
personnel security investigation, depending on what that 
employee is doing, what their assignment is, whether they are 
assigned to a high-risk environment, whether there is any 
information received that might indicate there is an integrity 
issue.
    Senator Pryor. OK. Do you have a sense of how many new 
personnel you would have to have in order to get to the level 
that you need to be?
    Mr. Tomsheck. Right now the vast majority of our background 
investigations and periodic reinvestigations are conducted by 
contractors. We recently had to reduce the staffing of rehired 
annuitants that were dedicated to personnel or to periodic 
reinvestigations. To maintain our own investigative source and 
to eliminate the use of contractors would require several 
hundred individuals dedicated to doing periodic 
reinvestigations.
    Unfortunately, we just had to furlough or relieve of their 
duties 99 of our persons that were rehired annuitants, retired 
former FBI agents, DEA agents, Secret Service agents, ICE, 
customs agents who were re-employed dedicated to doing periodic 
reinvestigations. Unfortunately, last pay period we had to 
release 99 of them--temporarily, hopefully.
    Senator Pryor. And that is because of budget issues?
    Mr. Tomsheck. It is, sir.
    Senator Pryor. OK. Mr. Perkins, we talked about these task 
forces or multiagency meetings that you have. Could you tell 
the Subcommittee a little bit more about that, please?
    Mr. Perkins. Certainly. Yes, Senator. Presently we have 12 
Border Corruption Task Forces established. What these are, 
these are operational entities that involve agents from the 
agencies sitting here at the table as well as the 
Transportation Security Administration. They work up and down 
the Southwest border--and not only there, but they are also on 
the Northern border of the country. They work specifically 
cases involving corruption along the border, particularly the 
Southwest border, obviously involving drug trafficking, but, 
really, whatever else might come along, whether it is State, 
Federal, local law enforcement individuals, members of CBP, or 
the like. These turned out to be very--we are trying to stay 
ahead of the curve as much as we can. We enjoy probably--in all 
the task force operations the Bureau is in that I oversee on 
the criminal side, these are among the best as far as 
cooperative efforts, sharing of information, and people working 
together along the border. We are looking to expand those to 
other points of entry around the United States, but right now 
we are focusing on the Southwest border.
    Senator Pryor. How often do they meet face to face? Or is 
this more of just a conference call meeting?
    Mr. Perkins. No. These are actually collocated physical 
space investigators.
    Senator Pryor. OK. Good. And is it your experience that by 
them sharing information and being around each other and 
spending a lot of time with each other that they actually--the 
Federal side is helping the State side and the county is 
helping the Federal side?
    Mr. Perkins. Without a doubt. It is vital to have those 
types of relationships to leverage the resources each one of us 
can bring to the table, the various expertise each one of us 
can bring to the table, and the information sharing that comes 
there also. Without a doubt, that is vital.
    Senator Pryor. I know this isn't the focus of this hearing, 
but in those task forces, are you seeing evidence of State and 
local corruption as well?
    Mr. Perkins. Yes, sir, that is the case. And, in fact, one 
of the things we are trying to do with everybody's budgets--we 
have to work and live within them. Recently in the 2010 
appropriation we were able to receive additional bodies to 
fight gang violence across the United States. So instead of 
parsing these out across the United States in little pieces, we 
decided to go where we thought we could make a major impact, 
and we went to the Southwest border, and we queried our SACs, 
our agents in charge, to provide proposals to us so that we 
could place, for instance, an entire squad--eight agents, an 
intelligence analyst, staffing, and the like--into a field 
office to address a particular issue.
    What we wanted them to do was, one, have something to do 
with gang violence; two, have some tie into public corruption 
along those lines; three, have something to do with money 
laundering. So it was kind of a joint, across-the-stovepipes 
effort.
    We have identified two of the three offices where we are 
going to select those squads right now and go forward. So we 
are trying to use that type of information that not only 
addresses gang violence in these areas but addresses State and 
local corruption along the border also.
    Senator Pryor. This next question might be a little bit 
sensitive, and if you cannot answer it, I understand. But one 
of the concerns when you hear a story about this, about 
corruption on the border and some problems with drugs, guns, 
money, etc., coming in and out, would be terrorism. Are you 
seeing any evidence of terrorists tapping into this and coming 
into the country?
    Mr. Perkins. I think what we are trying to identify, you 
step back and you look at individuals, if they are willing to 
wave a carload of marijuana or cocaine or illegal aliens 
through, why wouldn't they be willing to wave through a known 
terrorist or even perhaps some components to an improvised 
explosive device of some type? It is all the same to us. That 
is why we are trying to focus on this as seriously as we are to 
address these issues.
    If you recall back, I mean, history shows--it was on the 
Northern border when components attempted to smuggle in back 
during the millennium, back in 2000, an explosive device into 
the country. At that point that was successfully interdicted.
    So while I am not saying that--we are prepared for that. We 
suspect that is possible, and we are trying to do what we can 
with this effort to interdict those potentialities.
    Senator Pryor. Thank you very much.
    Mr. Frost, let me do a little follow-up with you. We have 
talked about Customs and Border Protection. Can you give us a 
sense, though, of ICE and TSA and other agencies in terms of 
the frequency of corruption or the scope and nature of it?
    Mr. Frost. Well, the numbers for ICE and CBP are quite 
different, but also their mission is different and their 
numbers of employees are different. Probably the--they are 
right about half, if you look at arrests and case openings and 
case investigations. But ICE also includes the element of ICE 
that deals with detainees, alien detainees, and transport of 
those individuals.
    Citizenship and Immigration Services (CIS) is probably, 
from a homeland security investigation standpoint, our area of 
most concern. Immigration benefits are such a valuable 
commodity to enemies of the United States, whether they are 
drug-trafficking organizations or other persons that would do 
us harm. And the ability of lower-level employees to make 
decisions on immigration benefits is disproportionate, similar, 
I would say, to CBP's authorities at the border where you have 
your average employee who is making decisions about whether 
someone could come in the country. Certainly with immigration 
benefits, the impact is even more lasting and profound.
    Senator Pryor. Do you have a sense of how these agents in 
the various agencies, are being penetrated and corrupted? How 
do they go from Point A to Point B in terms of being corrupted?
    Mr. Frost. Well, we have looked at kind of comparing it to 
the espionage-related corruption techniques where organized 
criminal groups actually look for vulnerable employees, and it 
may be someone that they already have a social relationship 
with. People down on the Southwest border like to say that to 
them the river is just a river. There is a lot of commerce, 
family, and other interaction between people on both sides of 
the border. And the same is true on the Canadian border where 
DHS employees often go to have meals or entertainment or just 
for tourism.
    So recruiters try and target people that are vulnerable or 
people that they know, people who are willing to talk about 
their work. And then they assess those people, and they look 
for those who have obvious vulnerabilities, who may be prone to 
infidelity or alcohol abuse. And then they target them and 
begin a relationship, a further relationship that starts with 
small favors and expands until they are committed to these 
levels of corruption that we believe are in some cases 
traitorous.
    Senator Pryor. There again, that is very concerning. So 
besides polygraphs and background checks that are supposed to 
happen every 5 years, what do you do to try to monitor your 
workforce in all your various agencies?
    Mr. Frost. Well, within the Department there are internal 
affairs components, both with CBP, ICE/OPR, Secret Service, 
TSA, Coast Guard, and we work closely with those internal 
affairs components to monitor those administrative-type cases.
    Senator from, I think, all of our perspectives, 
administrative-type cases are important tells, if you will, of 
employee misconduct. You know, a leaking faucet starts with a 
drip, and the first sign of corruption is not generally when 
someone is knee deep and already involved with an organization.
    Senator Pryor. Which, really also raises another question 
that we have not talked about, and that is, Mexico's commitment 
to thwarting the efforts of these cartels. This is really just 
for the panel at large, anyone who wants to answer. But what is 
your sense of Mexico's commitment, Mexico's level of 
determination to get these cartels under control and break them 
up, however they do that under Mexican law? What is your sense 
of their commitment level?
    Mr. Perkins. Speaking from the Bureau's perspective, we 
have a very good relationship with our colleagues on the 
Mexican side through our legal attache in the embassy and 
through other agents who are actually stationed and work in 
Mexico. Really, for the Department of Justice (DOJ), the Drug 
Enforcement Administration has the lead in working those 
matters, but we do receive a great deal of cooperation from the 
Mexican Government.
    Obviously, of late, a number of leaders of various drug-
trafficking organizations have either been captured or killed 
within the last 6 months, which has caused somewhat of a 
destabilization in the area down there. That is kind of sorting 
itself out right now, and I know the Mexican Government is 
attempting to push harder and try to further destabilize these 
organizations and break them into components that can be dealt 
with directly.
    But from the Bureau's standpoint, we enjoy a very good 
relationship with the Mexican Government in the sharing of 
information.
    Senator Pryor. Great.
    Mr. Frost. Mr. Perkins is, I think, very correct that the 
level of violence, our understanding from our DEA law 
enforcement partners and ICE, who all have human intelligence 
assets wherever they can get them down there, the level of 
violence down there is very bad, and it causes the local 
government closest to the border to make some very difficult 
decisions about at what level and how they can cooperate with 
us in trying to stem this smuggling.
    Senator Pryor. Well, and I assume that a pretty healthy 
amount of drugs are smuggled in via air. Is that right as well? 
Or do they all come in vehicles over the road?
    Mr. Perkins. I think it is a combination of all--land, sea, 
and air--on that. The exact percentages I do not have with me.
    Senator Pryor. One of the questions I have--and this is 
more of an internal question--is I know you have IGs and you 
have Internal Affairs and you have different agencies that may 
have different structures and different personalities and 
missions and turf. How are the agencies doing in your view, Mr. 
Frost? How are the agencies doing internally in terms of making 
sure that these cases are being handled properly within the 
agency and if they need to work with another agency, that is 
being done and there is cooperation? How is that going 
internally?
    Mr. Frost. Well, I think we are making great strides there. 
You know, we have to recall that the Department of Homeland 
Security is pretty new still, relatively. And we are continuing 
to define our roles within the Department.
    The good news, the best news of this is that we all want 
the same thing. We are all dedicated to stopping this and to 
locking up the bad guys, and I am very confident that minor 
issues between agencies are things that will always occur and 
that we will always be able to work it out as long as we have 
that same goal.
    Senator Pryor. Mr. Tomsheck, do you have any comment on 
that?
    Mr. Tomsheck. I would, Senator. I think we need to continue 
to work really hard at working better together at each and 
every level. Previously, I mentioned the FBI-led Border 
Corruption Task Forces. I think having all of the agencies 
involved, working well in that environment, is the right 
response. I think working in genuine full partnerships in an 
atmosphere where you know there is redundant verification that 
information is being shared, that all available resources are 
being brought to bear in a coordinated way, is the only way 
forward.
    I believe all of us sitting at the table and ICE/OPR and 
other agencies need to bring to bear all of our resources 
working in a highly collaborative way. I have concerns that at 
the end of the day, resources being what they are in all of 
those agencies, if we are working in a perfectly harmonious 
way, we still may be short of what is needed.
    Senator Pryor. OK. So still work to be done there, then.
    Mr. Tomsheck. I believe it is something we need to 
continually work at.
    Senator Pryor. Now, I think almost everybody has mentioned 
here that you may need more resources, especially you, Mr. 
Tomsheck. You talked about at CBP you need more resources in 
terms of polygraph, etc.
    Aside from resources, can you all think of any changes in 
the law, any changes in legislation that would help this? Or do 
you see this as pretty much just a resource issue?
    Mr. Tomsheck. Senator, I believe having the authority to 
require polygraph examinations as part of the periodic 
reinvestigation process would be helpful. I do not know that we 
would necessarily administer periodic polygraph examinations to 
everyone in the CBP workforce, but do it on a strategic basis 
when we deem it is appropriate and necessary based on the 
degree of risk this employee may pose, based on their 
assignment, the nature of their duties, and other information 
that the periodic reinvestigation may have developed. We do not 
have that authority, and I think that is something that would 
be enormously beneficial.
    Senator Pryor. Good. Thank you. Anybody else on that?
    Mr. Perkins. I would just say at this point we are 
confident that we have the tools to move forward, but I will 
leave it also in the fact that I meet regularly, if not 
multiple times a week, with the Assistant Attorney General for 
Criminal Division, Lanny Breuer, at the Department of Justice, 
and these matters are always on the table and always being 
discussed, and I would defer to the Department on those 
matters. But for the time being, I believe we have the tools in 
place.
    Senator Pryor. OK. Well, that is encouraging, but please 
check back with us if you find something else, and the same for 
the other two witnesses.
    We are going to keep the record open for 15 days, and there 
will be some other questions from other Subcommittee Members 
who got caught up at hearings or down on the floor, because we 
have a busy floor schedule this week.
    I guess I would be remiss if I did not mention before we 
leave here that the vast majority of your agents and employees 
do a great job and they are not corrupt and they are out there 
putting their lives on the line every day to try to keep 
America secure. And we cannot forget them, and we cannot paint 
everybody with too broad of a brush here. But I do think that 
we have a very serious problem here that we need to address, 
and I think it is largely a resource issue. There may be a few 
changes in the law that we can make here or there to make this 
better.
    But I really want to thank all of you for coming today and 
being part of this hearing. I think you have helped us as a 
Subcommittee to understand the scope and nature of the problem. 
I think you have helped us identify some practical approaches 
to solve this and gave us a snapshot of where we are, and I 
think that is very helpful.
    But I will say this: I do think that this is something that 
is critically important that we address and address very 
quickly and thoroughly and do it in the right way. So I think I 
can speak for the whole Subcommittee and the whole Committee 
and probably the whole Senate in saying that we need to 
prioritize this and help you all solve this, because we are on 
very dangerous ground here with corruption within our Federal 
law enforcement agencies.
    So we will continue to work with you on this, and we would 
really appreciate your ideas, your suggestions, your 
recommendations, other people that we can talk to help us get a 
better feel for how we can address this, because it is a very 
serious need.
    But with that, what I will do is we will leave the record 
open for 15 days, and if other Senators have questions, which I 
know some will, we would love to get those back from you within 
the next 15 days.
    Unless there is something else, I will go ahead and close, 
but thank you very much for all your participation, your 
preparation, and your presence here today. Thank you.
    [Whereupon, at 12:06 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
